TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                              Collection Actions for
                         In-Business Trust Fund Accounts
                        Closed as Currently Not Collectible
                                Need Improvement



                                         August 24, 2010

                              Reference Number: 2010-30-095




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                     HIGHLIGHTS


COLLECTION ACTIONS FOR                                  required collection actions are not performed
IN-BUSINESS TRUST FUND ACCOUNTS                         while a revenue officer is determining
CLOSED AS CURRENLY NOT                                  collectability of an in-business trust fund
COLLECTIBLE NEED IMPROVEMENT                            account, additional liabilities may accrue.
                                                        TIGTA estimates that improving controls to
                                                        ensure required collection actions are pursued
Highlights                                              could potentially prevent approximately
                                                        $84 million in liabilities from accruing per year,
                                                        which is approximately $420 million over the
Final Report issued on August 24, 2010                  next 5 years.
Highlights of Reference Number: 2010-30-095             Mandatory followup reviews were not always
to the Internal Revenue Service Commissioner            requested and performed after in-business trust
for the Small Business/Self-Employed Division.          fund accounts were closed as currently not
                                                        collectible. In 45 (49 percent) of 92 cases
IMPACT ON TAXPAYERS                                     reviewed, mandatory followup reviews were not
The large number of in-business taxpayers that          performed. These accounts were not available
are accumulating trust fund tax liabilities is a        for further collection actions. TIGTA estimates
major tax compliance problem for the Internal           that improving controls to ensure mandatory
Revenue Service (IRS). Overall, TIGTA                   followup reviews are performed would make
determined that the Collection Field function           approximately $46 million of in-business trust
needs to improve collection actions for                 fund liabilities available for collection each year,
in-business trust fund accounts closed as               which is about $230 million for the next 5 years.
currently not collectible. Because not all              WHAT TIGTA RECOMMENDED
required collection actions were taken,
taxpayers continued to accumulate additional            TIGTA recommended that the IRS: 1) provide
trust fund taxes. Taxpayers who do not                  training to Collection Field function managers
voluntarily pay their share of taxes create unfair      and revenue officers with additional emphasis
burden on honest taxpayers and diminish the             on the importance of securing, verifying, and
public’s respect for the tax system.                    analyzing financial information; 2) ensure the
                                                        Integrated Collection System and Internal
WHY TIGTA DID THE AUDIT                                 Revenue Manual are updated to include
This audit was initiated as part of our Fiscal          verification of income and expense
Year 2009 Annual Audit Plan and addresses the           requirements; 3) continue development and
major management challenge of Tax                       implementation of a systemic process within the
Compliance Initiatives. The overall objective           Integrated Collection System to require the
was to determine whether the IRS Collection             scheduling of mandatory followup reviews; and
Field function appropriately evaluates and              4) update Centralized Case Processing function
monitors in-business trust fund accounts closed         procedures to clarify mandatory followup review
as currently not collectible.                           procedures and require periodic monitoring prior
                                                        to mandatory followup review dates.
WHAT TIGTA FOUND
                                                        In their response to the report, IRS officials
The Collection Field function did not take all          agreed with the recommendations and outcome
appropriate collection actions prior to closing         measures. The IRS has taken steps to
in-business taxpayer accounts as currently not          implement several corrective actions and plans
collectible. In 20 (33 percent) out of 61 cases         to take additional steps to address TIGTA’s
reviewed, revenue officers did not always               concerns.
secure, verify, and/or analyze information to
determine taxpayers’ current financial condition
and/or determine whether the taxpayers were
current with filing requirements. When all
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 24, 2010


 MEMORANDUM FOR COMMISSIONER SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Collection Actions for In-Business Trust Fund
                             Accounts Closed as Currently Not Collectible Need Improvement
                             (Audit # 200930015)

 This report presents the results of our review to determine whether the Internal Revenue Service
 Collection Field function appropriately evaluates and monitors in-business trust fund accounts
 closed as currently not collectible. This audit was included as part of our Fiscal Year 2009
 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.
                             Collection Actions for In-Business Trust Fund Accounts
                             Closed as Currently Not Collectible Need Improvement




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Collection Field Function Did Not Take All Appropriate
          Collection Actions Prior to Closing In-Business Taxpayer
          Accounts as Currently Not Collectible .........................................................Page 4
                    Recommendation 1:..........................................................Page 6

                    Recommendation 2: .................................................................... Page 7

          Mandatory Followup Reviews Were Not Always
          Requested and Performed After In-Business Trust Fund
          Cases Were Closed as Currently Not Collectible .........................................Page 7
                    Recommendations 3 and 4: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measures...............................................................Page 15
          Appendix V – Glossary of Terms .................................................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
        Collection Actions for In-Business Trust Fund Accounts
        Closed as Currently Not Collectible Need Improvement




                    Abbreviations

BMF           Business Master File
CCP           Centralized Case Processing
CFf           Collection Field function
IBTF          In-Business Trust Fund
ICS           Integrated Collection System
IDRS          Integrated Data Retrieval System
IRS           Internal Revenue Service
RO            Revenue Officer
TRCAT         Taxpayer Service and Return Processing Categorization
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement




                                             Background

The Internal Revenue Service (IRS) defines a trust fund 1 tax as money withheld from an
employee’s wages (income, Social Security, and Medicare taxes) by an employer and held in
trust until paid to the United States Department of the Treasury. Employers are required to:
     •   Withhold amounts (trust fund tax) from their employees’ salaries to cover individual
         Federal income, Social Security, and Medicare taxes.
     •   Make matching contributions for the amounts for Social Security and Medicare taxes.
     •   Deposit these amounts with the Department of the Treasury.
     •   File employment tax returns.
The collection of taxes with employment tax returns is a significant source of revenue for the
Federal Government. According to IRS data, approximately $1.8 trillion (67 percent) of the
$2.7 trillion in revenue collected in Fiscal Year 2008 was from individual income and
employment taxes withheld. 2 A 2008 Government Accountability Office report indicated that
“while most businesses fulfill their fiduciary responsibility to the government to withhold taxes
from their employee’s salaries, make matching contributions, and remit these sums to the
government, a significant number do not. As of September 30, 2007, IRS’s records showed that
over 1.6 million businesses owed over $58 billion in unpaid payroll taxes, including interest and
penalties.” 3
The large number of in-business taxpayers who are pyramiding trust fund tax liabilities is a
major compliance problem for the IRS. Accordingly, one of the highest work priorities in the
Collection Field function (CFf) is in-business trust fund (IBTF) accounts. Generally, collection
assignments for these liabilities go directly to the CFf, where a revenue officer (RO) will seek to
get the taxpayer to become compliant with current deposit 4 and payment requirements and
request full payment of taxes owed. In those instances where the taxpayer cannot fully pay the


1
  See Appendix V for a glossary of terms.
2
  IRS Data Book Fiscal Year 2008, Table 5. Individual income and employment taxes withheld include Individual
income taxes and Federal Insurance Contributions Act taxes. Federal Insurance Contributions Act taxes include
Old-Age, Survivors, and Disability Insurance (referred to as Social Security) and Hospital Insurance (referred to as
Medicare Part A) taxes.
3
  Tax Compliance: Businesses Owe Billions in Federal Payroll Taxes (GAO-08-617, dated July 2008). The
number reported by the GAO is total unpaid payroll taxes. This includes all balance due accounts where collection
statutes (generally 10 years) have not expired (i.e., accounts in notice status, accounts in active collection, and
accounts in suspense status such as currently not collectible).
4
  Employers are generally required to pay payroll taxes periodically through the Federal Tax Deposit system.
                                                                                                             Page 1
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement



back taxes, the RO may explore other collection alternatives such as an installment agreement.
However, in some instances, the in-business taxpayer may not have the ability to pay his or her
back taxes, and enforcement actions cannot be taken because the business has no equity in assets.
In these cases, the RO can close the business taxpayer’s account as currently not collectible.
However, prior to doing so, the RO must:
    •   Ensure the taxpayer is in compliance with current filing, deposit, and payment
        requirements, which may include the use of Letter 903 to inform the taxpayer of the
        consequences of not depositing Federal employment taxes.
    •   File Notice of Federal Tax Lien, where applicable.
    •   Obtain a collection information statement (financial information).
    •   Conduct a Trust Fund Recovery Penalty investigation and make a recommendation of
        whether or not the penalty is to be assessed.
Unlike a number of other currently not collectible dispositions, subsequent liabilities on these
taxpayer accounts must be investigated by the CFf to verify the taxpayer’s financial condition
and to make a Trust Fund Recovery Penalty recommendation. Also, because these cases will not
be systemically re-activated if a taxpayer’s financial status improves, the RO must request a
mandatory followup review of the taxpayer’s account within 18 to 24 months after closing the
account as currently not collectible.
The Centralized Case Processing (CCP) function maintains
the closed case files to monitor followup review dates and
generates assignments through what are known as Other                          As of September 30, 2009,
Investigations. These assignments can result in the RO taking                    in-business taxpayers,
enforcement actions to collect the outstanding balance due or                   with accounts declared
                                                                                currently not collectible,
returning the account to currently not collectible status. At a                owed about $1.1 billion in
minimum, the RO should:                                                        unpaid employment taxes.
    •   Secure a new collection information statement.
    •   Conduct a full compliance check.
    •   Review the taxpayer’s latest income tax return.
The IRS’ data for Fiscal Years 2006 through 2008 shows that more than 649,000 business
taxpayers owing more than $20.4 billion in tax, penalties, and interest were declared currently
not collectible for various reasons. 5 Of these, more than 402,000 business taxpayers owed more
than $12.5 billion in employment taxes. In-business taxpayers represent about $604 million


5
 Accounts can be declared currently not collectible for various reasons including bankruptcy, defunct corporation,
hardship, in-business, and shelved accounts.
                                                                                                            Page 2
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement



(5 percent) of the $12.5 billion owed by business taxpayers. As of September 30, 2009, the total
IRS inventory of currently not collectible accounts included almost $20.7 billion of unpaid
employment taxes from business taxpayers with $1.1 billion (approximately 5 percent) from
in-business taxpayers. 6 While the in-business taxpayers represent a relatively small portion of
the business accounts declared currently not collectible, there is an increased risk that additional
trust fund liabilities will accumulate.
This review was performed at the IRS Small Business/Self-Employed Division CFf offices in
Seattle, Washington, and Detroit, Michigan, during the period April 2009 through
February 2010. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




6
 IRS Collection Report 5000-149 (Recap of Accounts Currently Not Collectible Report). The report does not
provide a breakdown of the number of taxpayers by the various currently not collectible closing codes. The majority
of business accounts closed as currently not collectible were due to the IRS shelving process, but defunct
corporations accounted for about 67 percent of the dollar amounts.
                                                                                                           Page 3
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement




                                      Results of Review

The Collection Field Function Did Not Take All Appropriate Collection
Actions Prior to Closing In-Business Taxpayer Accounts as Currently
Not Collectible
When working an IBTF account, the RO will seek to get the taxpayer to become compliant with
current deposit and payment requirements and will request full payment of taxes owed. In those
instances where the taxpayer cannot fully pay the back taxes, the RO performs additional
collection actions. These collection actions generally include having taxpayers file delinquent
returns, filing tax liens, and determining collectability by securing and verifying financial
information to identify the financial condition of the taxpayer. Managers are required to review
collection actions taken by ROs to determine whether the proposed case resolution supports the
currently not collectible closure.
To determine whether the CFf took appropriate actions to maximize collections, we reviewed a
statistical sample of 61 in-business taxpayer accounts closed as currently not collectible in
Calendar Year 2008. These cases had a total outstanding balance of $4 million. We selected our
sample from a population of 3,248 cases of in-business taxpayers with a total outstanding IBTF
balance of $245 million.
Overall, we determined the CFf did not take all appropriate collection actions prior to closing
in-business taxpayers’ accounts as currently not collectible. In 20 (33 percent) of 61 cases, ROs
did not secure, verify, and/or analyze financial information to determine ability to pay and/or did
not ensure that the taxpayers were current with all tax return filing requirements. Specifically,
our analysis of the 20 cases 7 showed:
    •    Six cases in which the RO did not secure financial information to determine the
         taxpayer’s ability to pay.
    •    Ten cases in which the RO did not verify the financial information provided by the
         taxpayer to adequately determine the taxpayer’s current financial condition. Also, in 6 of
         these 10 cases, the RO did not document and/or analyze the financial information to
         determine the taxpayer’s ability to pay.
    •    Six cases in which the RO did not ensure the taxpayers were in compliance with all tax
         return filing requirements.

7
 Two of the compliance cases also had a verification issue. Therefore, the cases reported will not add up to the
20 cited.
                                                                                                             Page 4
                     Collection Actions for In-Business Trust Fund Accounts
                     Closed as Currently Not Collectible Need Improvement



ROs did not always secure financial information
ROs are required to secure financial information when full payment is not received. This
financial information is later used to determine the taxpayer’s financial condition and ability to
pay his or her tax liabilities. In addition, CFf managers are required to conduct an independent
review of the financial information secured by the ROs to determine if procedures have been
followed and the collection actions taken support the proposed case resolution. However, ROs
did not secure financial information in 6 of the 20 exception cases. Our analysis of these cases
showed that the CFf manager did not ensure the RO secured the necessary financial information
to support the proposed case resolution as currently not collectible. Without securing financial
information, the RO has not properly documented the decision to close the case as currently not
collectible and the managers are unable to validate whether the RO case resolution decision was
appropriate.

ROs did not always verify income and expenses
Financial information secured from the taxpayer or his or her representative should be complete,
and the ROs should verify income and expenses to determine the taxpayer’s financial condition.
However, the ROs did not verify income and expense information provided by the taxpayers in
10 of the 20 exception cases.
In December 2007, the IRS provided financial analysis training to CFf managers. The training
provided was based on IRS focus group dialogues with the ROs and managers which revealed a
lack of consistency following established Internal Revenue Manual procedures when cases were
being closed as currently not collectible. In particular, securing, verifying, and analyzing
financial data on the cases was the greatest area of concern of the focus group. During this
training, CFf managers received a training guide entitled, Financial Analysis Training for
Collection Field Group Managers. IRS management explained that they encouraged the CFf
managers to use this Guide to train the ROs within their groups during staff meetings to ensure
consistency in the performance of collection actions for analyzing financial data. However, the
IRS did not require the CFf managers to report if this training was completed.
The ROs use the Integrated Collection System (ICS) to manage their workload and identify
collection actions to complete while they are working their cases. The ICS has action items the
ROs must check off as they progress through their casework. The ICS does not include a
requirement to verify income and expense information as an action item for the ROs to complete
when full payment is not secured from the taxpayer. Without the verification of income and
expense information as an ICS requirement, this collection item is not being completed.




                                                                                            Page 5
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement



We reviewed the Field Compliance Embedded Quality Guide, 8 Financial Analysis Training
Guide, and Internal Revenue Manual to determine whether they contained requirements for
verification of income and expense information. We found the Field Compliance Embedded
Quality Guide and the Financial Analysis Training Guide had a requirement for verification of
income and expenses. However, the Internal Revenue Manual procedures need to be
strengthened to include the verification of income and expense requirement.

The ROs did not ensure taxpayers were in compliance with filing requirements
The ROs should monitor filing and payment responsibilities of the taxpayer prior to closing a
case. Prior to case closure, the RO must address all modules regardless of status, especially if
the taxpayer has pyramided trust fund liabilities. However, the ROs were not verifying and
addressing compliance prior to closing the in-business accounts as currently not collectible. We
found that six cases were closed when the taxpayer was not in compliance with his or her filing
requirements. Because delinquent returns exist on the taxpayer account, these cases may be
reassigned into the field due to the delinquency or subsequent liabilities may be incurred.
When all required collection actions are not performed while an RO is determining collectability
of an IBTF account, additional liabilities may accrue. ROs did not take adequate collection
action to prevent pyramiding of IBTF liabilities. In 16 of the 20 exception cases, the taxpayer
continued to accumulate additional trust fund liabilities while the cases were assigned to an RO.
For these 16 cases, a total of $658,326 in liabilities pyramided, increasing the assigned
outstanding liabilities from $925,300 when the case was assigned to $1,583,626 prior to the
cases being closed as currently not collectible. This resulted in an average increase of $41,145
per case. Based on our statistically valid sample, we project that improving controls to ensure
required collection actions are pursued could potentially prevent approximately $84 million 9 of
IBTF liabilities from accruing per year, or approximately $420 million over the next 5 years.

Recommendations
The Director, Collection, Small Business/Self-Employed Division, should ensure:
Recommendation 1: Training is provided to CFf managers and ROs with additional
emphasis on the importance of securing, verifying, and analyzing financial information.



8
  Field Compliance Embedded Quality Guide, April 2008, contains guidelines for CFf managers and National CFf
quality reviewers to follow when reviewing cases using the Embedded Quality Program. Embedded Quality is
designed to place more emphasis on significant case actions (attributes) and to concentrate less on process steps.
9
  This projection is potential total outstanding liabilities of the taxpayer as originally assigned plus additional
accruals, all of which may not be accrued. In addition, not all of this projected amount would be collected due to
taxpayer behavior that is out of the control of the RO. See Appendix IV for details on the computation of the
outcome measure.
                                                                                                             Page 6
                      Collection Actions for In-Business Trust Fund Accounts
                      Closed as Currently Not Collectible Need Improvement



       Management’s Response: IRS management agreed with this recommendation and
       will issue a memo to reinforce the Internal Revenue Manual guidance for closing
       accounts as in-business currently not collectible. In addition, a training class is scheduled
       that will provide more detailed guidance for CFf managers and ROs working in-business
       accounts
Recommendation 2: The ICS and Internal Revenue Manual are updated to include
verification of income and expense requirements.
       Management’s Response: IRS management agreed with this recommendation and
       has requested a change to the ICS to address the requirement for verification of income
       and expenses. In addition, the Internal Revenue Manual will be updated to clarify that
       ROs must analyze and verify income and expenses prior to reporting accounts as
       currently not collectible.

Mandatory Followup Reviews Were Not Always Requested and
Performed After In-Business Trust Fund Cases Were Closed as
Currently Not Collectible
Followup reviews are conducted to determine whether the taxpayer’s financial condition has
changed or whether the account should remain currently not collectible and be scheduled for an
additional mandatory followup review. If the taxpayer’s financial condition has improved,
collection actions are resumed. IRS procedures require the CFf to conduct a mandatory followup
review 18 to 24 months after the IBTF accounts are determined to be not collectible. The RO
should initiate and schedule mandatory followup reviews when the cases are closed.
To determine whether the CFf took timely and appropriate mandatory followup review actions
on the IBTF accounts, we reviewed a statistical sample of 92 cases closed as currently not
collectible during Calendar Year 2006. These cases had a total outstanding balance of almost
$7 million. We selected our sample from a population of 2,011 cases of IBTF taxpayers with a
total outstanding balance of $161 million.
Scheduled mandatory followup reviews were conducted in 16 (17 percent) of the 92 cases. Our
analysis showed the ROs followed IRS procedures when conducting these reviews. Specifically,
they properly secured new financial information, conducted compliance checks, and reviewed
the latest income tax returns for these case reviews. In addition, 31 (34 percent) of the 92 cases
incurred subsequent delinquencies (i.e., additional liabilities, unfiled tax returns) after they were
closed. These cases reached the IRS inventory assignment criteria and were assigned back to the
field for additional collection actions. However, in 45 (49 percent) cases, neither a mandatory
followup review nor other subsequent collection action occurred. Specifically, we found:
   •   In 34 of the 45 cases, the RO did not request a mandatory followup review when the case
       was closed as currently not collectible.

                                                                                              Page 7
                        Collection Actions for In-Business Trust Fund Accounts
                        Closed as Currently Not Collectible Need Improvement



     •   In 11 of the 45 cases, the RO did request a mandatory followup review within the ICS;
         however, no mandatory followup review was conducted because the case was not
         assigned back to the field to work when the followup review date arrived.

Mandatory followup reviews were not always conducted
The IRS process for requesting a mandatory followup review requires the RO to select a
followup review box in the currently not collectible section of the ICS when the case is closed.
This initiates and schedules the mandatory followup review. The ROs should be familiar with
this requirement. We found 34 cases where the ROs did not request mandatory followup reviews
when they closed the cases.
The IRS was aware the ROs were not requesting mandatory followup reviews. The IRS
explained that if the RO is unfamiliar with the procedures, the case currently can be closed
within the ICS without a mandatory followup review being scheduled. At the time we conducted
our review, IRS management was in the process of implementing a systemic process within the
ICS that will require the ROs to schedule a mandatory followup review when an IBTF account is
closed as currently not collectible. When this new process is implemented, the ICS will not
allow the case to be closed without the mandatory followup review being scheduled. The
scheduled implementation date is January 2011. We believe the implementation of a systemic
requirement for mandatory followup review within the ICS will address this concern.

The CCP function did not assign all cases to the field when the mandatory
followup review date arrived
If the RO schedules a followup review within the ICS, the case is then assigned systemically to
the CCP function for monitoring. When the followup review date arrives, if the case still has a
balance due account, the CCP function should assign the case back to the field to work
We identified 11 cases where, although the ROs requested mandatory followup reviews within
the ICS, mandatory followup reviews were not conducted. The cases were not assigned back to
the field to work when the followup review date arrived. The IRS determined CCP function
procedures needed to be clarified to outline the actions the CCP function should take when the
mandatory followup review date arrives. In February 2010, the IRS issued a CCP alert 10 to
identify the problem while it establishes procedures in this area. We agree that procedures need
to be developed to clarify and strengthen the process for ensuring cases are assigned back to the
field if balance due and/or delinquent returns exist on the account when the mandatory followup
review date arrives.




10
  CCP alerts are issued to notify employees of a procedural problem and actions they should take while procedures
are being established to address the problem.
                                                                                                          Page 8
                          Collection Actions for In-Business Trust Fund Accounts
                          Closed as Currently Not Collectible Need Improvement



When the IRS does not follow up on accounts closed as currently not collectible, there is no way
to verify the taxpayer’s financial condition for ability to pay his or her tax liabilities. In 17 of the
45 exception cases, the taxpayer incurred subsequent delinquencies (i.e., additional liabilities,
unfiled tax returns) after the cases were closed in Calendar Year 2006. However, as of
July 2009, these cases had not reached the IRS inventory assignment criteria to be assigned back
to the field and were not available for further collection actions.
Based on the 45 exception cases identified in our statistically valid sample, we estimate that
improving controls to ensure mandatory followup reviews are performed would make
approximately $46 million 11 of IBTF liabilities available for collection per year, or
approximately $230 million over the next 5 years.

Recommendations
Recommendation 3: The Director, Collection, Small Business/Self-Employed Division,
should coordinate with the Modernization and Information Technology Services organization to
ensure continued development and implementation of a systemic process within the ICS to
require the mandatory scheduling of followup reviews for IBTF accounts closed as currently not
collectible.
         Management’s Response: IRS management agreed with this recommendation and is
         in the process of updating the ICS to require ROs to schedule a mandatory followup
         when closing in-business cases as currently not collectible.
Recommendation 4: The Director, Campus Compliance Services, Small
Business/Self-Employed Division, should ensure CCP function procedures are updated to clarify
mandatory followup review procedures and require periodic monitoring prior to mandatory
followup review dates.
         Management’s Response: IRS management agreed with this recommendation. The
         CCP function issued an alert on February 22, 2010, clarifying the mandatory followup
         review procedures. The CCP function plans to issue a second alert after the CFf is
         notified of new CCP function procedures to perform periodic reviews of in-business
         currently not collectible cases being monitored by the CCP function.




11
  This projection represents tax liabilities potentially accrued and were not available for collection action. Not all of
this projected amount would be collected due to taxpayer behavior that is out of the control of the revenue officer.
See Appendix IV for details on the computation of the outcome measure.
                                                                                                                Page 9
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS CFf 1 appropriately
evaluated and monitored IBTF accounts closed as currently not collectible. This audit was
initiated as part of our Fiscal Year 2009 Annual Audit Plan and addresses the major management
challenge of Tax Compliance Initiatives. During the review, we relied on data from the Business
Master File (BMF), the ICS, and the Taxpayer Service and Return Processing Categorization
(TRCAT) file. We evaluated the reasonableness of the data through comparison with selected
information from the Integrated Data Retrieval System (IDRS). We determined that the data
were sufficiently reliable to meet our objective. To accomplish our audit objective, we:
I.      Determined whether the CFf takes appropriate actions to maximize collections from
        IBTF accounts prior to classifying them as currently not collectible.
        A. Discussed with Collection management expectations for working IBTF accounts and
           actions required prior to closing these accounts as currently not collectible.
        B. Determined whether timely and appropriate actions were taken prior to closing IBTF
           accounts as currently not collectible.
             1. Selected a statistically valid sample of 61 IBTF liability accounts considered
                currently not collectible as of December 27, 2008, that were closed as currently
                not collectible by the CFf between January 1 and December 17, 2008. This
                sample was randomly selected from a population of 3,248 taxpayers identified
                from the TRCAT file where the in-business currently not collectible transactions
                (i.e., transaction code 530 with a closing code 13) were input during this time
                period. The dates of the transaction input were obtained from an extract of the
                BMF. The statistical sample was based on a 95 percent confidence level, a
                precision level of ±10 percent, and an expected error rate of 20 percent. 2 This
                period was chosen to provide a current basis for evaluating case actions. We
                validated the reliability of the downloaded data by comparing the data to the



1
 See Appendix V for a glossary of terms.
2
 We determined the sample sizes based on a 20 percent error rate and 50 percent error rate. We used the 50 percent
error rate sample size and used a random number generator to select 93 cases, based on a population of
3,248 taxpayers, in case we would need to expand our review based on preliminary audit results. We started the
case reviews with the first 61 cases as determined by the 20 percent error rate. The actual error rate of 33 percent
did not require expansion or review of the additional 32 cases preselected. Because all 93 cases were randomly
selected at the same time, reviewing the first 61 cases does not affect the validity of the sample.
                                                                                                           Page 10
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement



                  information available through research of the IDRS. We selected a statistical
                  sample to be able to quantify and project our results to the population.
             2. Evaluated the sample of closed case files to determine whether required
                enforcement actions were taken or attempted prior to closing the account as
                currently not collectible.
II.      Determined whether timely and appropriate actions were taken after IBTF accounts were
         classified as currently not collectible.
         A. Discussed with Collection management expectations for conducting followup reviews
            on IBTF accounts.
         B. Discussed with CCP function management methods used to ensure mandatory
            followup review dates are monitored and followup reviews are initiated as required.
            We evaluated the adequacy of the CCP function’s control over monitoring and
            initiating required followup reviews.
         C. Determined whether timely and appropriate mandatory followup review actions were
            taken on IBTF accounts closed as currently not collectible.
             1. Selected a statistically valid sample of 92 IBTF accounts 3 considered currently
                not collectible as of December 23, 2006, that were closed as currently not
                collectible by the CFf between January 1 and December 12, 2006. This sample
                was randomly selected from a population of 2,011 taxpayers identified from the
                TRCAT Business File where the in-business currently not collectible transactions
                (i.e., transaction code 530 with a closing code 13) were input during this time
                period. The dates of the transaction input were obtained from an extract of the
                BMF. The statistical sample was based on a 95 percent confidence level, a
                precision level of ±10 percent, and an expected error rate of 50 percent. 4 This
                period was chosen because followup reviews should be scheduled 18 to
                24 months after disposition and it provides a basis for evaluating the adequacy of
                the followup reviews. We validated the reliability of the downloaded data by
                comparing the data to the information available through research of the IDRS.
                We selected a statistical sample to be able to quantify and project our results to
                the population.

3
  The population may include some business taxpayers without trust fund filing requirements and/or liabilities based
on limitations with extracts.
4
  We determined the sample sizes based on a 20 percent error rate and 50 percent error rate. We used the 50 percent
error rate sample size and used a random number generator to select 92 cases, based on a population of 2,011, in
case we would need to expand our review based on preliminary audit results. We started the case reviews with the
first 60 cases as determined by the 20 percent error rate, experienced a higher error rate than expected, and expanded
our audit to review the additional 32 cases preselected. Because all 92 cases were randomly selected at the same
time, expansion of the audit does not affect the validity of the sample.
                                                                                                            Page 11
                     Collection Actions for In-Business Trust Fund Accounts
                     Closed as Currently Not Collectible Need Improvement



           2. Evaluated the sample cases to determine whether the CFf effectively evaluated
              the taxpayer’s current financial condition and took appropriate actions based on
              the results of the review.
       D. Evaluated the sample cases identified in Step II.C.1. to determine whether the CFf
          takes appropriate actions when taxpayers accrued subsequent trust fund tax liabilities.
III.   Determined the reliability of the ICS currently not collectable data extract.
       A. On randomly selected taxpayer accounts, evaluated the reliability of data by
          comparing the RO case closed date from the Data Center Warehouse with the IRS
          IDRS currently not collectible transaction code date and the ICS module balance
          amount with the IDRS assessed balance amount.
       B. Evaluated completeness of the data by comparing the ICS currently not collectable
          file to a data extract of BMF transaction code 530 with closing code 13 (i.e., the
          transaction code and closing code that indicates a currently not collectible in-business
          account).
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: CFf and CCP function policies,
procedures, and practices for case actions taken prior to closing in-business accounts as currently
not collectible and case actions taken for mandatory followup reviews. We evaluated these
controls by interviewing management, reviewing source materials, and analyzing closed case
actions on accounts closed as currently not collectible during Calendar Years 2006 and 2008.




                                                                                           Page 12
                    Collection Actions for In-Business Trust Fund Accounts
                    Closed as Currently Not Collectible Need Improvement



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Amy Coleman, Audit Manager
Glen Rhoades, Audit Manager
Christina Dreyer, Lead Auditor
Darryl Roth, Lead Auditor
Lynn Rudolph, Senior Auditor
Richard Viscusi, Senior Auditor




                                                                                      Page 13
                   Collection Actions for In-Business Trust Fund Accounts
                   Closed as Currently Not Collectible Need Improvement



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Planning and Analysis, Small Business/Self-Employed Division SE:S:C:PA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 14
                         Collection Actions for In-Business Trust Fund Accounts
                         Closed as Currently Not Collectible Need Improvement



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.
The IRS can potentially increase revenue by approximately $130 million per year ($84 million of
accrued IBTF 1 liabilities for cases closed in Calendar Year 2008 and $46 million of IBTF
liabilities not available for collection action for cases closed in Calendar Year 2006) or
$650 million over the next 5 years. These benefits can potentially be achieved if the CFf takes
all appropriate collection actions prior to closing IBTF taxpayer accounts as currently not
collectible and performs mandatory followup reviews after the cases are closed.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $84 million in additional accruals 2 per year or $420 million
    for 5,325 taxpayers over the next 5 years (see page 4).

Methodology Used to Measure the Reported Benefit:
We identified 3,248 IBTF 3 accounts from the TRCAT business file where the in-business
currently not collectible transactions (i.e., transaction code 530 with closing code 13) were input
during January through December 2008. We obtained the dates of the transaction input from an
extract of the BMF. From this population, we selected a statistical sample of 61 cases using a
confidence level of 95 percent, a precision level of ±10 percent, and an expected error rate of
20 percent.
We determined that, in 20 cases, the ROs did not secure, verify, and/or analyze financial
information to determine the ability to pay and/or did not ensure that the taxpayers were current
with all tax return filing requirements. These 20 cases had accrued a total of $1,583,627 in tax
liabilities. For the sample, this resulted in an average of $25,961 per case ($1,583,627/61).
Projecting this average potential tax liability per case over the population of 3,248 cases, we
estimate that improving controls to ensure required collection actions are pursued could

1
  See Appendix V for a glossary of terms
2
  This projection is potential total outstanding liabilities of the taxpayers as originally assigned plus additional
accruals, all of which may not be accrued. In addition, not all of this projected amount would be collected due to
taxpayer behavior that is out of the control of the RO.
3
  The population may include some business taxpayers without trust fund filing requirements and/or liabilities based
on limitations with extracts.
                                                                                                           Page 15
                          Collection Actions for In-Business Trust Fund Accounts
                          Closed as Currently Not Collectible Need Improvement



potentially prevent approximately $84 million ($25,961 x 3,248) of IBTF liabilities from
pyramiding per year, which is approximately $420 million over the next 5 years.

Type and Value of Outcome Measure:
•   Increased Revenue – Potential; $46 million available for collection4 per year or $230 million
    for 4,920 taxpayers over the next 5 years (see page 7).

Methodology Used to Measure the Reported Benefit:
We identified 2,011 IBTF 5 accounts from the TRCAT business file where the in-business
currently not collectible transactions (i.e., transaction code 530 with closing code 13) were input
during January through December 2006. We obtained the dates of the transaction input from an
extract of the BMF. From this population, we selected a statistical sample of 92 cases using a
confidence level of 95 percent, a precision level of ±10 percent, and an expected error rate of
50 percent.
We determined that in 45 cases the CFf did not conduct a mandatory followup review because
these cases were not assigned to the field for collection. These 45 cases had accrued a total of
$2,092,796 in tax liabilities. For the sample, this results in an average of $22,748 per case
($2,092,796/92). Projecting this average potential tax liability per case over the population of
2,011 cases, we estimate that improving controls to ensure mandatory followup reviews are
performed would make approximately $46 million ($22,748 x 2,011) of IBTF liabilities available
for collection per year, which is about $230 million over the next 5 years.




4
  This projection represents tax liabilities potentially accrued and were not available for collection action. In
addition, not all of this projected amount would be collected due to taxpayer behavior that is out of the control of the
RO.
5
  The population may include some business taxpayers without trust fund filing requirements and/or liabilities based
on limitations with extracts.
                                                                                                              Page 16
                     Collection Actions for In-Business Trust Fund Accounts
                     Closed as Currently Not Collectible Need Improvement



                                                                                  Appendix V

                                Glossary of Terms

Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Centralized Case Processing – The unit that works requests from the Collection Field function.
Collection Field function – The unit in the Area Offices consisting of ROs who handle personal
contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Data Center Warehouse – An architecture used by the Treasury Inspector General for Tax
Administration to maintain critical historical data that have been extracted from IRS operational
data storage and transformed into accessible formats.
Embedded Quality Program – A measurement system for reporting organizational quality
performance and is comprised of two distinct systems: the Embedded Quality Review System
and the National Quality Review System. The Embedded Quality Review System provides a
structured context for evaluating employee performance. The National Quality Review System
provides independent collection review information from which management may draw
inferences regarding overall case quality for a given operational segment.
Full Compliance Check – Involves determining whether the taxpayer is current with his or her
Federal tax deposit requirements and current with tax return filing requirements.
In-Business – A business with ongoing business activity.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Integrated Collection System – An information management system designed to improve
revenue collections by providing ROs access to the most current taxpayer information using
laptop computers for quicker case resolution and improved customer service.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
Letter 903 – Alerts a taxpayer of the seriousness of noncompliance and explains more fully the
alternatives that can be taken if the taxpayer is still not in compliance with the trust fund tax
requirements. Subsequent noncompliance subjects the taxpayer to special filing and deposit
requirements, and further noncompliance subjects the taxpayer to potential criminal charges or
civil injunctions.

                                                                                          Page 17
                     Collection Actions for In-Business Trust Fund Accounts
                     Closed as Currently Not Collectible Need Improvement



Pyramiding – The incurring of future additional tax liabilities.
Revenue Officer – An employee in the Collection Field function who attempts to contact
taxpayers and resolve collection matters that have not been resolved through notices sent by the
IRS campuses or the Automated Collection System.
Taxpayer Service and Return Processing Categorization file – A part of the Accounts
Receivable Dollar Inventory. These files are generated on a quarterly basis from both the
Individual Master File and Business Master File.
Trust Fund – Money withheld from an employee’s wages (income, Social Security, and
Medicare taxes) by an employer and held in trust until paid to the United States Department of
the Treasury.
Trust Fund Recovery Penalty – A penalty assessed against any person required to collect,
account for, and pay taxes held in trust who willfully fails to perform any of these activities. The
penalty is equal to the amount of tax evaded, not collected, or not accounted for and paid. The
RO must establish responsibility and willfulness when determining whether to proceed with
assertion of the Trust Fund Recovery Penalty.




                                                                                            Page 18
      Collection Actions for In-Business Trust Fund Accounts
      Closed as Currently Not Collectible Need Improvement



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 19
Collection Actions for In-Business Trust Fund Accounts
Closed as Currently Not Collectible Need Improvement




                                                     Page 20
Collection Actions for In-Business Trust Fund Accounts
Closed as Currently Not Collectible Need Improvement




                                                     Page 21
Collection Actions for In-Business Trust Fund Accounts
Closed as Currently Not Collectible Need Improvement




                                                     Page 22
Collection Actions for In-Business Trust Fund Accounts
Closed as Currently Not Collectible Need Improvement




                                                     Page 23
